gl°5306 OR’GtMAL
IN THE SUPREME COURT OF THE UNITED STATES

In re Richard Arjun Kaul, MD
Petitioner

' FILED
JUL 2 ? 2021
OFFICE OF THE CLERK
SUPREME COURT ns*

On Petition for a Writ of Prohibition to the U.S. District
Court for the District of New Jersey in Case No. 21-CV10363-FLW-TJB
Richard Arjun Kaul, MD v. Philip Murphy et al.
PETITION FOR WRIT OF PROHIBITION
Richard Arjun Kaul, MD
Propria Persona
440c Somerset Drive
Pearl River, NY, 10965
drrichardkaul@gmail.com
Dated: July 25, 2021

l

RECEIVED
JUL 3 0 2021

Contents
Authorities - Page 5
Parties to the Proceeding - Page 6
Relief Sought - Page 7
Issue/Question Presented - Page 8
Statements/Facts Necessary to Understand Petition - Page 9
Standard of Review/Legal Authority for grant of writ - Page 11
Reasons for Granting the Writ - Page 12
Summary of Appendices - Page 19
Conclusion - Page 24

2

The Kaul Cases
Kl: Kaul v Christie: 16-CV-02364 -VOLUNTARILY DISMISSED
K2: Kaul v Christie: 18-CV-08086 - VOLUNTARILY DISMISSED
K3: Kaul v Schumer: 19-CV-13477 - VOLUNTARILY DISMISSED
K4: Kaul v Stolz: 18-CV-01489 - VOLUNTARILY DISMISSED
K5: Kaul v Federation: 19-CV-3050 - APPEAL DISMISSED FOR LACK OF
PROSECUTION
K6: Kaul v Kaufman: State Criminal Indictment
K7: Kaul v Federation: 20-CV-01612 - OPEN
K8: Plaintiffs v Kaul (All criminal/civil cases filed against Kaul from 1999
to 2015 in the UK/US)
K9: Stolz v Kaul: 20-AA-01011 - CLOSED
K10: Kaul v Plaintiffs (All cases filed by Kaul to reverse judgments/verdicts
entered from 1999 to 2015 in the UK/US).
Kll-1: Kaul v Federation: 21-CV-00057 - OPEN
Kll-2: Kaul v Boston Partners: 21-CV-10326 - OPEN
Kll-3: Kaul v Allstate: 21-CV-00736 - OPEN
Kll-4: Kaul v Murphy: 21-CV-09788 - VOLUNTARILY DISMISSED
Kll-5: Kaul v State of New Jersey: No. 2092-DRR - INDIAN HIGH COURT
Kll-6: Kaul v Moore: Docket Number Pending (New York State Supreme
Court)
Kll-7: Kaul v Federation/New York State Medical Board/Allstate: Pending
filing
Kll-9: Kaul v Murphy: 21-CV-13063 - DISMISSED WITHOUT PREJUDICE
AFTER TRANSFER FROM USDC-SDNY TO DNJ
3

PI: Kaul/Patel v Crist/State of New Jersey: 19-CV-08946 - CLOSED
P2: Kaul/Patel v Crist/Allstate: 19-CV-09232 - CLOSED

4

Legal Standard of Review
All Writs Act 28 U.S.C. § 1651 - Writ of Prohibition
United States v. Hoffman, 71 U.S. 4 Wall. 158 158 (1866)
Larocca v Lane, 37 N.Y.2d 575
Related British/House of Lords jurisprudence:
R v Bow Street Metropolitan Stipendiary Magistrate Ex parte Pinochet
Ugarte (No.2) (1999).

5

Parties to The Proceeding
Richard Arjun Kaul, MD is the Petitioner in this action. The Respondents
are: (1) Philip Murphy; (2) Christopher J. Christie; (3) Gurbir Grewal; (4)
Robert McGuire; (5) Doreen Annette Hafner.

6

Relief Sought
Petitioner, RICHARD ARJUN KAUL, MD (“Kaul”) seeks an order from this
Court to the United States District Court for the District of New Jersey,
that prohibits all judges from any participation/involvement to any degree
in any aspect of Kaul v Murphv: 21-CV-13063. and assigns the case to any
district court, outside of the Third Circuit.

7

Issue/Question Presented
Commencing on April 2, 2012, Kaul’s fundamental human rights under
both international and American law have been egregiously violated by
administrative/state/bankruptcy/federal courts within the geographic
boundaries of the State of New Jersey. Kaul’s constitutionally protected
right to life, liberty and property have been, and continue to be violated
by, amongst others, judges within the United States District Court for the
District of New Jersey. The injuries caused by this decade of violations,
one conducted by and within courts located in the State of New Jersey, are
detailed in Appendix A.
Question: In continuing to violate Kaul’s fundamental and constitutional
human rights, does the law strip the judges and the District of New Jersey
of their jurisdiction and authority.

8

Statement + Facts Necessary to Understand Petition

The decade-long violation of Kaul’s fundamental human and constitutional
rights by The Kaul Cases Defendants has caused loss of life, liberty and
property. The violation has been malicious, willfully purposed to destroy
Kaul (jail/deportation/death) and is ongoing. The Defendants perpetration
of this scheme was only made possible by the collusion/conspiracy of
administrative/state/bankruptcy/federal/appellate courts within the State
of New Jersey and the Third District of the United States District Court.
One of the principal motivations for the corruption of the District of New
Jersey and the U.S.C.A. for the Third Circuit, is the fact that Defendants
Allstate/TD/Geico (Berkshire Hathaway) have knowingly violated, and
continue to violate, the Sarbanes-Oxlev Act. The risk to these Defendants
of a criminal investigation for judicial corruption is far outweighed by the
immense and uncontrollable risk of the corporate decimation that would
definitively follow any legal/regulatory/shareholder action, and its
attendant publicity, consequent to the Defendants ongoing fraud on the
US securities market.
The following evidence constitutes a “substantial claim” and provides
“ancillary” factors. See Larocca v Lane. 37 N.Y.2d 575. that comport with
principles applied in granting a writ of prohibition, one of which is that
where a petitioner submits an arguable, substantial, and novel claim that

9

a court [had] exceeded its powers because of a collision of unquestioned
constitutional principles, he may, in the first instance, seek redress by
prohibition. See 37 N.Y.2d at 581. 338 N.E.2d at 611. 376 N.Y.S.2d at 99. An
analysis of the “ancillary” factors involves a consideration of: (i) the
gravity of the harm caused by the excessive power - if the District of New
Jersey/U.S.C.A. - Third Circuit were permitted to adjudicate Kll-9, Kaul
would forever be deprived of his right to vindicate his violated
Constitutional rights; (ii) the availability or unavailability of an adequate
remedy on appeal, at law, or inequity - the Defendants have corrupted the
judicial apparatus within the U.S.C.A. for the Third Circuit, and many of
the judges within this circuit have
political/economic/personal/professional connections to The Kaul Cases
Defendants, and the evidence proves they are substantially conflicted.
Thus, Kaul is foreclosed from procuring any remedy to the deprivation of
his rights, on appeal, at law or in equity; (iii) the remedial effectiveness of
prohibition if such an adequate remedy does not exist - a writ of
prohibition is the only remedy to attempt to prevent any further violation
of Kaul’s rights. The “substantial” and “ancillary” factors submitted by
Kaul, and as interpreted by the prevailing law, do substantiate the
issuance of writ of prohibition to the judges within the District of New
Jersey.

10

Standard of Review/Legal Authority for grant of writ
28 U.S.C. S 1651
28 U.S.C. § 2241: This petition constitutes an element of Kaul’s one hundred
and nine (109) month (license suspended June 2012) legal effort to regain
his illegally deprived livelihood, and thus his life, property and LIBERTY,
and is in effect also a petition for a writ of Habeus Corpus pursuant to 28
U.S.C. § 2241. Kaul has been wrongfully ‘imprisoned’ since June 2012, and
the District of New Jersey, in collusion/conspiracy with The Kaul Cases
Defendants is perpetuating the violation, by its continued attempts to be
involved in the cases, and its continued obstruction of Kaul’s efforts to
become ‘un-imprisoned’.

11

Reasons for Granting the Writ
A writ of prohibition will be in aid of the Court’s jurisdiction and the
District of New Jersey is foreclosed from exerting any jurisdiction over the
case:
The Court’s jurisdiction extends to protect Kaul’s Constitutional rights,
from an ongoing violation, and if the Court were not to preempt or cause
to cease the violation, until it had furthered the irreversibility and
permanency of injury, then the Court’s jurisdiction over the violation, and
its protection of Kaul’s Constitutional rights, would be irredeemably
deprived. However, if the writ is granted, the ongoing violation will cease,
and the Court’s jurisdiction to protect Kaul’s Constitutional rights will be
exercised in a timely and protective manner, consistent with
Constitutional principles that empower the Court with its discretion to
grant a writ.
The District of New Jersey and its judges remain in an adversarial
position with Kaul, pursuant to Kll-l/Kll-3, and are thus constrained by
the due process/impartial tribunal clauses of the Constitution from any
administrative or ministerial function within any of The Kaul Cases and
can make no argument to the contrary.

12

Exceptional circumstances warrant the exercise of the Court’s
discretionary powers, and a writ of prohibition is the only remedy to
prohibit the breach of natural justice, that would be caused if the case
were tried in the District of New Jersey
From April 2, 2012 to the present, Kaul has been the subject of an “ongoing
pattern of racketeering”, conducted through the
executive/legislative/judicial branches of the State of New Jersey and
bankruptcy/district courts within the District of New Jersey, and a
“pattern” that has extended into the NYSE, the SEC and across the globe.
The injuries caused and continuing to be caused to Kaul by the Defendants
and the District of New Jersey, constitute “exceptional circumstances” in
and of themselves, but the extreme examples lie in the fact that his
requests to have investigated the crimes of The Kaul Cases Defendants
have been either ignored or denied, his liberty illegally violated, and his
life almost ended. Kaul has sought relief in this Court on two (2) prior
occasions, and on one his plea was denied and the other was returned for
correction of filing deficiencies. These facts stem from the success of
Kaul’s minimally invasive spine surgery practice (2002-2012), that
occurred in part because in 2005, he invented a procedure that
revolutionized the field of outpatient spine surgery. Since Kaul
commenced litigation on February 22, 2016, he has been denied any
discovery, had all of his substantive motions denied, while every
substantive motion filed by the Defendants was granted. Every case,
13

except Kll-2, that Kaul filed in courts outside of New Jersey was
transferred to the same judge in the District of New Jersey-Newark, over
Kaul’s strenuous objections (March 2016-Present) that he would not
receive justice in New Jersey.
In Kll-1 Kaul is suing the District of Newark, and in Kll-3, Kaul is suing
the judges within the District of New Jersey, for misconduct outside the
scope of their official duties. The plausibly pled claims have not been
dismissed, transferred to New Jersey nor denied by the Defendants, and
have an “assumption of truth”. Thus, if any of the judges or the court were
involved in any aspect of any of The Kaul Cases it would constitute a
willful and ongoing violation of Kaul’s constitutional right to an impartial
tribunal and due process, and therefore does deprive the District of New
Jersey of jurisdiction. These protections are not only enshrined in the
Constitution but constitute the substance of Articles 8 and 10 of the
Universal Declaration of Human Rights (1948). Kaul’s case is a
fundamental human rights case , in which the violators include
judges/politicians/law enforcement attorneys within the District of New
Jersey, the very individuals that society expects, and has empowered to
protect against human rights violators. Since April 2, 2012, Kaul has been
subjected to tyranny, abuse of power, denial of justice, deprivation of
human rights and the equivalent of a wrongful imprisonment, because he

14

built a successful minimally invasive spine surgery practice, that helped
thousands of Americans with debilitating spinal pain.
Kaul’s efforts to appeal to U.S.C.A. for the Second Circuit have been
obstructed, in that his notice of appeal, received in the S.D.N.Y. on July 1,
2021 via FedEx, was not published to the docket, and any appeal of Kll-9
from the District of New Jersey would be futile, and provide an inadequate
remedy to the ongoing violation of Kaul’s constitutional and human rights,
and the illegal deprivation of critical years of his profession, now standing
at almost a decade. Kaul was forty-seven (47) in 2012, and on the cusp of
expanding his work globally. The Kaul Cases Defendants maliciously used
the US wires and the authority of state to transmit the knowing fraud to
almost every state/federal healthcare related agency in the world,
including the FBI, the DEA, the National Practitioners Data Bank and
every state medical board, the purpose being, as the evidence proves, to
eliminate him (jailed/deported/killed) and his ability to earn a livelihood
anywhere in the world.

Kll-9, as one of The Kaul Cases, is of immense interest to the public and
the American medical profession, because it has exposed the rampant
corruption of state medical boards and other state/federal regulatory
agencies by for-profit corporations, that has caused thousands of
physicians to be illegally deprived of their life, liberty and property. An

15

element of the “HIPIC-FC” (Kll-2: D.E. 65 Page 43 of 48-Appendix D)
scheme is to confiscate the assets of targeted physicians (predominantly
ethnic minorities/immigrants), to deprive them of their constitutional
right to mount a legal defense. America incarcerates more physicians per
capita than any other country in the world.

This public interest factor, pursuant to Rule 11, provides that a petition
for “extraordinary” relief be granted “upon a showing that the case is of
such imperative public importance as to justify deviation from normal
appellate practice and to require determination in this Court.”

As plausibly pled in Kll-l/Kll-3, the judges and the court in the District of
New Jersey have been coopted by The Kaul Cases Defendants into
obstructing their prosecution by Kaul, and in the process illegally
subverting the power of the United States District Court, and thus the
United States, to perpetrate an “ongoing” racketeering scheme that
violates Kaul’s human/constitutional rights, and continues to cause injury
to his life, liberty and property.

The above facts violate Kaul’s right to natural justice, and thus the District
of New Jersey and its judges are foreclosed from any adjudicatory or

16

ministerial involvement in any aspects of any of The Kaul Cases, including
Kll-9.
The facts evidence that adequate relief cannot be obtained in any other
form or from anv other court and that the District of New Jersey and its
judges have, in collusion and conspiracy with The Kaul Cases Defendants.
committed a massive ‘Fraud on the Court’ of the United States, an ongoing
violation that only a writ of prohibition will iniunct.
In 2018 Defendant Christie recommended to President Trump, that Paul
Matey be appointed to the U.S.C.A. for the Third Circuit. From 2010 to
2015, Paul Matey, Esq, acted as deputy chief counsel to then Governor
Christie, this being a time period in which The Kaul Cases Defendants
conspired to commit, and did commit crimes against Kaul, that involved
violations of RICO and Kaul’s constitutional rights. Thus, any
courts/judges within the U.S.C.A. for the Third Circuit are forever
foreclosed from any adjudicatory or ministerial role in any aspects of any
of The Kaul Cases, and the Court, therefore, is foreclosed to Kaul in the
interests of natural justice. See R v Bow Street Metropolitan Stipendiary
Magistrate Ex part Pinochet Ugarte tNo.2) 11999). The disqualification of
Lord Hoffman by the House of Lords, consequent to his directorship of
Amnesty International in the case of ex-Chilean President, Augusto
Pinochet. It is no coincidence that every petition Kaul has made to the
U.S.C.A. for the Third Circuit, seeking to prevent a violation of his
Constitutional rights, by judges within the District of New Jersey, has
been denied, and as Kaul plausibly asserts in Kll-2, the U.S.C.A. for the
17

Third Circuit, did conspire with the District of New Jersey, to manipulate
the procedural posture of Kl, with the intent of preventing Kaul from
either prosecuting the case in the district court, or procuring appellate
jurisdiction. This particular element of the grand scheme of judicial
racketeering, commenced in approximately 2019, and continued until Kaul
voluntarily dismissed the appeal in July 2021. The Kaul Cases Defendants,
in collusion and conspiracy with judges in the District of New
Jersey/U.S.C.A. for the Third Circuit, have converted the United States
District Court into a “racketeering enterprise”, through which they
conducted a “pattern of racketeering”, that involved the commission of
hundreds of the RICO predicate acts of mail fraud/wire
fraud/bribery/obstruction of justice/public corruption/judicial corruption.

18

Summary of Appendices

Appendix A - July 22. 2021: 21-CV-10326: Opposition to Defendant Boston
Partners Motion to Dismiss:
The knowing/willful violation of the Sarbanes-Oxlev Act by Defendants
Allstate/TD/Geico (Berkshire Hathaway), has caused all The Kaul Cases
Defendants, consequent to RICO, to become both civilly/criminally liable.
Their only tactic, as they are now defenseless, is to attempt to transfer
K11-9/K11-2 to the District of New Jersey, to the remit of one of the Kll-3
#

Defendant judges, in order to prevent further public exposure of the SOX
violation, a financial crime that is already known to the CEOs/CFOs of the
S/P 500. The District of New Jersey, the U.S.C.A.-Third Circuit and their
judges, have, since February 22, 2016, provided cover for a criminal
scheme that commenced in 2006, and constitutes an “ongoing pattern of
racketeering”, in which The Kaul Cases Defendants have converted the
executive/legislative/judicial branches of the State of New Jersey, the
United States District Court, the NYSE and the SEC into “racketeering
enterprises”, through which they have committed thousands of the RICO
predicate acts of perjury/mail fraud/wire fraud/obstruction of
justice/money laundering/securities
fraud/kickbacks/extortion/kidnapping/retaliation/evidence
tampering/witness tampering. The conduits and cover for these crimes
have been and are administrative/state/bankruptcy/federal courts within
19

the State of New Jersey and the Third Circuit of the United States Court of
Appeals. The global integrity of the US securities market is harmed by the
involvement of the District of New Jersey in any of The Kaul Cases.
Appendix B - June 9. 2021: 21-CV-13063: Complaint:
Defendant Christie was served in Kll-2 on May 26, 2021 at his law office in
Morristown, New Jersey. On May 27, 2021, Kaul was illegally
arrested/imprisoned/maliciously prosecuted, as pled in the Complaint.
Witness to the arrest was a Dr. Evangelos Megariotis, a colleague of Kaul,
with whom Kaul just happened to be on a phone call when nine (9) armed
men illegally and without warrants entered his place of work. Kaul had
Megariotis on speaker-phone for the duration of the events, and
Megariotis did talk directly with one of the armed men. On the morning of
May 28, 2021, Kaul submitted a letter into Kll-2 (D.E. 18/19) that details
these events and identifies Dr. Megariotis as a witness to the crime. In the
afternoon of May 28, 2021, the fiancee of Dr. Megariotis was contacted via
telephone by two men purporting to be DEA agents, who wanted to talk
with her about Dr. Megariotis, regarding an investigation they had
supposedly initiated against him. She felt threatened and intimidated, and
thus did, on July 12, 2021, testify before a grand jury impaneled in the
District of New Jersey. The Kaul Cases Defendants, in recognizing their
immense civil/criminal liability, in part because of their violation of
Sarbanes-Oxlev. and Kaul’s civil rights, did commit the RICO predicate act

20

of retaliation, in collusion/conspiracy with New Jersey based federal
agencies, purposed to eliminate Dr. Megariotis as a witness, through
indictment and imprisonment. In the commission of this act of retaliation
and attempted witness tampering/intimidation, The Kaul Cases
Defendants did convert these New Jersey based federal agencies into a
“racketeering enterprise”, a principal purpose being to conceal the
Defendants securities fraud crimes from the global investment market.
As part of the Defendants grand scheme of witness/evidence tampering,
they did order Defendant/U.S.D.J. Wolfson, to obstruct Kaul’s prosecution
of Kll-9, by entering a knowingly false order of dismissal (D.E. 10-July 9,
2021). Their strategy is to delay/obstruct Kaul’s prosecution of Kll-9, in the
hope they can indict Dr. Megariotis, eliminate his testimony, undermine
Kll-9, and mitigate its threat to Defendant Murphy’s attempt to be re­
elected to the Office of the New Jersey Governor, and Defendant Christie’s
political career. However, the ultimate purpose of all this crime, is an
attempt to conceal the securities fraud violations. The Kaul Cases
Defendants may have corrupted and taken control of state/federal
politicians and state/federal investigative/prosecutorial/judicial agencies
and the media, but they have NO control over the global investment
community, many of whom now view Defendants Allstate/TD/Geico
(Berkshire Hathaway) as immense liabilities and or threats.

21

Appendix C - July 6. 2021; 21-CV-10326: Letter-Kaul-SEC:
Defendant Grewal was transferred from the Office of the NJ AG to the
enforcement division of the SEC, in an attempt not only to eliminate his
suability, but to have him quash any securities fraud investigations
regarding the Defendants SOX violations.
Appendix D - January 17. 2018 to Mav 3. 2021: Unrefuted and irrefutable
evidence of judicial corruption within the District of New Jersey:
The documentary evidence within Appendix D unequivocally establishes
that the District of New Jersey is deprived of jurisdiction, because it has
willfully/knowingly violated, and continues to violate Kaul’s’ fundamental
human and constitutional right to life/liberty/property, in that it continues
to obstruct Kaul’s constitutionally protected right to reclaim his
life/liberty/property, after a decade of illegal deprivation. Included within
Appendix D is the recitation of fact that Kaul submitted to SCOTUS on
November 5, 2020, in support of his petition for a writ of mandamus to the
District of New Jersey, ordering it to adjudicate Kaul’s letter (K1:D.E. 434-2
Page ID 10970) seeking permission to file twenty-two (22) motions for
summary judgment. The petition, to Kaul’s knowledge, was neither
docketed nor returned to Kaul, but on November 5, 2020, all claims were
dismissed by Defendant/U.S.D.J. Vazquez, except that against Defendant
Mitchell. The two (2) reasons for this pertain to The Kaul Cases
Defendants “No Exit” scheme (Kll-4: D.E. 1 Page ID 44 of 95-within

22

Appendix D), and the fact that the law mandated entry of summary
judgment against the K1 Defendants, most of whom are Defendants in Kll2. In the petition, Kaul did raise the issue of risk to the market
capitalization of Defendants Allstate/TD/Geico (Berkshire Hathaway),
regarding ongoing litigation, a risk that Kll-2 has caused to become
actualized, in that it exposes the Defendants securities fraud. Had the
November 5, 2020 petition been granted, and K1 brought to settlement, the
Defendants would likely not now be subject to serious criminal/civil
liability, from amongst others, their shareholders.

23

Conclusion

For the above stated reasons, and because one of the judges is under
judicial investigation pursuant to a complaint filed by Kaul, he does
respectfully move this Court to issue a writ of prohibition to all judges in
the District of New Jersey, prohibiting them from having any adjudicatory
or ministerial involvement in any aspect of any of The Kaul Cases.

Kaul respectfully requests that this Court refer The Kaul Cases
Defendants to American prosecutorial authorities, for having violated the
Sarbanes-Oxley Act. Kaul will be referring the matter to the US Attorney
for the Southern District of New York.

I, Richard Arjun Kaul, MD, the Petitioner, do hereby certify that the above
statements are true and accurate to the best of my knowledge, and that if
it is proved that I willfully and knowingly misrepresented the facts, then I
will be subject to punishment.

m

Dated: July 25, 2021

RICHARD ARJUN KAUL, MD

24

